        AUDIT REPORT
   U.S. Fish and Wildlife Service Federal
   Assistance Grants Administered by the
Commonwealth of Massachusetts, Executive
Office of Environmental Affairs, Department
    of Fish and Game, Division of Marine
 Fisheries, from January 1, 2003, through
              December 30, 2004




         Report No. R-GR-FWS-0006-2005
                      SEPTEMBER 2005
               United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                       External Audits
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                 September 8, 2005

                                     AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the Commonwealth of Massachusetts, Executive Office of
           Environmental Affairs, Department of Fish and Game, Division of Marine Fisheries,
           from January 1, 2003, through December 30, 2004 (No. R-GR-FWS-0006-2005)

       This report presents the results of our audit of outlays reported by the Commonwealth of
Massachusetts, Executive Office of Environmental Affairs, Department of Fish and Game,
Division of Marine Fisheries (Division) from January 1, 2003, through December 30, 2004,
under Federal Assistance grants from the U.S. Fish and Wildlife Service (FWS). The audit
included reported outlays that totaled approximately $2.1 million on FWS grants that were open
during calendar years 2003 and 2004 (see Appendix 1). The audit also covered the Division’s
compliance with applicable laws, regulations, and FWS guidelines.

       We found that the Division was not adequately monitoring a cooperative agreement with
a non-profit organization, and as a result, the organization significantly increased its permit fees
without obtaining Division and FWS formal approval.

        FWS Region 5 provided a response to the draft of this report dated August 10, 2005,
which included a copy of the Division’s August 2, 2005 response to FWS. FWS concurred with
the recommendations and indicated that the Division’s proposal to implement the
recommendations will be considered in the corrective action plan. We summarized the FWS and
the Division’s responses after the recommendations, and added our comments regarding the
responses. The status of the recommendations is summarized in Appendix 2.
        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by December 7, 2005. Your
response should include the information requested in Appendix 2. If you have any questions
regarding this report, please contact Mr. Lawrence Kopas, Audit Team Leader, or me at (703)
487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                               2
                                                 Introduction

Background
The Dingell-Johnson Sport Fish Restoration Act (Act) authorizes the U.S. Fish and Wildlife
Service (FWS) to provide Federal Assistance grants to states to enhance their sport fish
programs. The Act provides for FWS to reimburse the states up to 75 percent of the eligible
costs incurred under the grants.

Scope, Objective, and Methodology
We conducted our audit at the Massachusetts Division of Marine Fisheries (Division)
headquarters in Boston, Massachusetts. The audit included reported outlays that totaled
approximately $2.1 million on 14 of the 17 1 FWS grants that were open during calendar years
2003 and 2004 (see Appendix). We also visited the Annisquam River Station field office in
Gloucester, Massachusetts. The objective of our audit was to determine:

           ¾ the adequacy of the Division’s accounting systems and related internal controls;
           ¾ the accuracy and eligibility of the direct and indirect costs claimed under the Federal
             Assistance grant agreements with FWS; and
           ¾ the adequacy of the Division’s asset management system and related internal controls
             with regard to purchasing, control, and disposal.

Since the Division does not sell fishing licenses, we did not perform a review of the collection
and use of license revenues or the license certification process.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the Division to
the grants and interviews with employees to ensure that personnel costs charged to the grants
were supportable. We did not evaluate the economy, efficiency, or effectiveness of the
Division’s operations.

Prior Audit Coverage
On July 23, 2001, we issued audit report No. G-GR-FWS-009-98-DC, “Audit of the
Commonwealth of Massachusetts Federal Aid Program Grants Active in Fiscal Years 1996 and
1997 Awarded by the U.S. Fish and Wildlife Service, Division of Federal Aid” which


1
    The Division did not claim any costs on 3 of the 17 grants during the audit period.


                                                            3
transmitted a report prepared by the Defense Contract Audit Agency. We followed up on all
significant findings and determined they had been resolved. In addition, the State Auditor issued
Single Audit reports on the Commonwealth for the State’s fiscal years (SFY) 2003 and 2004.
However, the Division was not audited as a major program, and the reports did not include any
findings regarding Federal Assistance funds or programs.




                                                4
                                    Results of Audit

We found that:

       ¾ The Division’s accounting system was adequate to account for grant disbursements.
       ¾ The Division’s asset management system and related internal controls with regard to
         purchasing, control, and disposal of assets was adequate.

However, we also found that the Division was not adequately monitoring a cooperative
agreement with a non-profit organization, resulting in the organization significantly increasing its
permit fees without Division or FWS approval.


A. Public Access Fees
The Division did not approve fee increases for annual permits for off-road vehicle (ORV) access
onto Leland Beach by the terms and conditions of a cooperative agreement between FWS, the
Division, and the Trustees of Reservations (Trustees) (a non-profit organization). The Division
acquired the Leland beach property in 1993 under FWS Grant No. F-59-L-1.

In February 1994, the Division entered into a Cooperative Management Agreement (Agreement)
with the Trustees, which permits public access over the Trustees’ property onto Leland Beach.
The Agreement also provides for the Trustees to manage and protect the endangered species and
fragile resources of Leland Beach. Section 2.2 of the Agreement allows the Trustees to charge
public access fees to offset its management expenses, as follows:

       “Trustees agree that any increase in such fees from those charged by Trustees as of the
       date of this Agreement as applied to the general public desiring access to Leland Beach
       only a) shall not be assessed without at least 30 days prior public notice, and b) must be
       approved by DMF (Division of Marine Fisheries) and the United States Fish & Wildlife
       Service (USF&WS), such approval not to be unreasonably withheld. Trustees agree that
       such fees as applied to such persons will not unreasonably discriminate between residents
       of Martha's Vineyard and persons who reside elsewhere. If DMF and the USF&WS
       neither approve nor disapprove the proposed fees within 30 days, the proposed fees will
       be deemed approved and Trustees may assess such fees as if approval had been granted.”
       [Emphasis added]

The Division did not adequately monitor the Agreement to ensure that the Trustees submitted
proposed fee increases for FWS and Division review and approval or that it acted on any
proposals received from the Trustees. The Division’s Federal Assistance Coordinator and FWS
Region 5 officials told us that they have not been notified of any planned fee increases since the
Agreement was signed in February 1994, and are concerned that the fees may discriminate
between local residents and the general public.


                                                 5
We obtained and compared the latest fee increases as posted on the Trustees Web site on April 7,
2005, to the fee schedule from 1993, which was in effect prior to and incorporated into the
February 1994 agreement. The differences in fees are based on two factors: Trustee
membership and Martha’s Vineyard island residency. Overall, as shown in the following table,
the fees for ORV 2 and the percentage increases were lower for members than non-members. We
noted that the fees have increased by 100 percent (i.e., doubled) for non-members but have
increased at lesser rates for Trustees members. Regarding residency, the percentage increases
were the same (100 percent) for residents and non-residents who were non-members, but were
higher for non-resident members (63 percent) than resident members (33 percent). We believe
that the fee structure should consider, in part, the amount of annual use by individual permittees,
which impact amount of visits, rather than membership or residency. The following table shows
the fee increases since 1993:

                                             1993 Fee                 Percentage    Dollar
                                             Schedule       2005       Increase    Increase
                   Trustees Member
                      Island Resident           $60          $80           33        $20
                        Non-Resident            $80         $130           63        $50

                   Non-Member
                     Island Resident            $75         $150          100        $75
                       Non-Resident            $100         $200          100       $100

Since the Trustees did not comply with terms of the Agreement when it increased its fees, we
believe that the Division should require the Trustees to provide information on the basis for each
increase. Both the Division and FWS should review the information to ensure that the increases
were appropriate.

           Recommendations
           We recommend that FWS:

           1. Ensure the Division adopts procedures to ensure compliance with the requirements in
              the Agreement that the Trustees submit all proposed fee increases to the Division for
              review and approval by FWS and the Division.

           2. Determine whether existing fees are reasonable and do not discriminate unreasonably
              between residents and non-residents of Martha’s Vineyard, and require the Trustees to
              make any adjustments, if necessary.




2
    The Trustees April 7, 2005 web site refers to ORVs as over sand vehicles.


                                                           6
Division Response
The Division agreed with the recommendations, but said that it has now determined that
the Trustees had notified the Division of the proposed fee increases prior to
implementation. The Division further said that there is no record that the Division ever
notified FWS of the proposed fee increases. The Trustees will submit proper notification
to the Division and the FWS on fee increases and request both the Division and FWS
agreement on all future adjustments to the fees.

FWS Response
FWS stated that it concurred with the recommendations and that the Division’s proposals
to implement them would be considered in the corrective action plan.

OIG Comments
FWS concurred with the recommendations, and stated that “The State’s proposal to
implement the recommendations will be considered in the corrective action plan.”
Therefore, additional information is needed concerning the resolution of the finding and
implementation of the recommendations.




                                        7
                                               Appendix 1

MASSACHUSETTS DEPARTMENT OF FISH AND GAME
       DIVISION OF MARINE FISHERIES
  FINANCIAL SUMMARY OF REVIEW COVERAGE
 JANUARY 1, 2003, THROUGH DECEMBER 31, 2004


                                    Reported
         Grant No.   Amount          Outlays
        F-48-R-17     $100,500       $71,712
        F-48-R-18       116,000       58,814
        F-49-T-17       330,000      457,285
        F-49-T-18       330,000      375,807
        F-56-R-13       310,000      254,854
        F-56-R-14       310,000      236,037
        F-57-R-12       209,500      168,904
        F-57-R-13       200,000      171,244
        F-63-R-6         10,000        4,216
        F-63-R-7         10,000        7,739
        F-63-R-8         10,000            0
        F-64-C-6        133,000       47,237
        F-64-C-7        121,500       67,552
        F-64-C-8        120,000            0
        F-66-O-6         97,500       62,763
        F-66-O-7         97,500       76,912
        F-116-D-1       365,000            0
                     $2,870,500   $2,061,076




                          8
                                                                               Appendix 2

       MASSACHUSETTS DEPARTMENT OF FISH AND GAME
              DIVISION OF MARINE FISHERIES
                STATUS OF AUDIT FINDINGS
                 AND RECOMMENDATIONS


Recommendations            Status                            Action Required

  A.1 and A.2     Management Concurs;          Provide a corrective action plan that
                  Additional Information       identifies the actions taken or planned to
                  Needed                       resolve the finding and implement the
                                               recommendations. The plan should also
                                               include the target date and the official
                                               responsible for implementation of each
                                               recommendation. The unimplemented
                                               recommendations remaining at the end of
                                               90 days (after December 7, 2005) will be
                                               referred to the Assistant Secretary for Policy,
                                               Management and Budget for resolution
                                               and/or tracking of implementation.




                                           9
  Report Fraud, Waste, Abuse,
     and Mismanagement
             Fraud, waste, and abuse in government
              concerns everyone: Office of Inspector
                    General staff, Departmental
              employees, and the general public. We
                 actively solicit allegations of any
             inefficient and wasteful practices, fraud,
           and abuse related to Departmental or Insular
           Area programs and operations. You can report
                allegations to us in several ways.



By Mail:                 U.S. Department of the Interior
                         Office of Inspector General
                         Mail Stop 5341 MIB
                         1849 C Street, NW
                         Washington, D.C. 20240



By Phone:                24-Hour Toll Free          800-424-5081
                         Washington Metro Area      202-208-5300



By Fax:                  202-208-6081




By Internet:             www.oig.doi.gov
